      Department of Homeland Security




       National Protection and Programs Directorate’s 

      Management Letter for FY 2011 DHS Consolidated 

                 Financial Statements Audit 





OIG-12-52                                       March 2012

                                                               Office ojlnSl'cc/or Gel/eml

                                                               U.S. Department of Homeland S«urlly
                                                               Washinglon. DC 20528



                                                              Homeland
                                                              Security
                                            MAR   l' 4 2011
                                               Preface

The Department of Homeland Security (DHS) Office of Inspector General (D IG) was
establ ished by the Homeland Security Act 0/2002 (Public Law 107-296) by amendment
to the Inspector General Act 0/1978. Th is is one ofa series of audit, inspection, and
special reports prepared as part of our oversight responsibili ties to promote economy,
efficiency, and effectiveness within the Department.

This report presents the National Protection and Programs Directorate's Management
Letter for FY 201 1 DHS Conso lidated Financial Statements Audit. It contains
observations related to internal control s that were not required to be reported in the
financial statements aud it report. The independent public accounting finn KPMG LLP
(KPMG) perfonned the integrated audit ofD HS' FY 201 1 financial statements and
internal control over financial reporting and prepared this management letter. KPMG is
responsib le fo r the attached management letter dated February 3, 2012 and the
conclusions ex pressed in it. We do not ex press opinions on DHS' financial statements or
internal control or provide conclusio ns on compliance with laws and regu lat ions.

The observations herein have been di scussed in draft with management officials. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of thi s report.



                                               Anne L. Richards
                                               Assistant Inspector General for Audits
                               KPMG LLP
                               Suite 12000
                               1801 K Street, NW
                               Washington, DC 20006
February 3, 2012


Office of Inspector General
U.S. Department of Homeland Security, and
Chief Financial Officer
U.S. Department of Homeland Security National Protection and Programs Directorate
Washington, DC


Ladies and Gentlemen:

We have audited the balance sheet of the U.S. Department of Homeland Security (DHS or
Department) as of September 30, 2011 and the related statement of custodial activity for the year
then ended (referred to herein as the “fiscal year (FY) 2011 financial statements”). The objective
of our audit was to express an opinion on the fair presentation of these financial statements. We
were also engaged to examine the Department’s internal control over financial reporting of the
balance sheet as of September 30, 2011, and statement of custodial activity for the year then ended,
based on the criteria established in Office of Management and Budget, Circular No. A-123,
Management’s Responsibility for Internal Control, Appendix A.
Our Independent Auditors’ Report issued on November 11, 2011, describes a limitation on the
scope of our audit that prevented us from performing all procedures necessary to express an
unqualified opinion on DHS’ FY 2011 financial statements and internal control over financial
reporting. In addition, the FY 2011 DHS Secretary’s Assurance Statement states that the
Department was unable to provide assurance that internal control over financial reporting was
operating effectively at September 30, 2011. We have not considered internal control since the
date of our Independent Auditors’ Report.
A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent,
or detect and correct misstatements on a timely basis. A material weakness is a deficiency, or
combination of deficiencies, in internal control such that there is a reasonable possibility that a
material misstatement of the entity’s financial statements will not be prevented, or detected and
corrected on a timely basis. A significant deficiency is a deficiency, or a combination of
deficiencies, in internal control that is less severe than a material weakness, yet important enough
to merit attention by those charged with governance. In accordance with Government Auditing
Standards, our Independent Auditors’ Report, referred to in the paragraph above, included internal
control deficiencies identified during our audit, that individually, or in aggregate, represented a
material weakness or a significant deficiency.
The National Protection and Programs Directorate (NPPD) is a component of DHS. We noted
certain matters, related to NPPD that are summarized in the Table of Financial Management
Comments on the following pages, involving internal control and other operational matters that are
less severe than a material weakness or a significant deficiency, and consequently are reported
separately to the Office of Inspector General (OIG) and NPPD management in this letter. These
comments and recommendations, all of which have been discussed with the appropriate members
of management, are intended to improve internal control or result in other operating efficiencies.
The disposition of each internal control deficiency identified during our FY 2011 audit – as either
reported in our Independent Auditors’ Report, or herein – is presented in Appendix A. The

                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.
status of internal control deficiencies identified during our FY 2010 audit is presented in Appendix
B.
We would be pleased to discuss these comments and recommendations with you at any time. This
report is intended for the information and use of DHS’ and NPPD’s management, the DHS Office
of Inspector General, the U.S. Office of Management and Budget, the U.S. Congress, and the
Government Accountability Office, and is not intended to be and should not be used by anyone
other than these specified parties.



Very truly yours,
                             National Protection and Programs Directorate
                              Table of Financial Management Comments
                                         September 30, 2011

               TABLE OF FINANCIAL MANAGEMENT COMMENTS (FMC)

Comment

Reference   Subject                                                                            Page(s)


FMC 11-01   Inadequate Internal Controls over Reporting of Government Furnished Equipment         2
            Asset Disposals
FMC 11-02   Subject to Availability of Funding Agreements Not Obligated in Federal Financial      2
            Management System at Outset of Agreement
FMC 11-03   Inadequate Internal Controls over Reporting of Internal Use Software Projects        2-3
FMC 11-04   Inadequate Internal Controls over Reporting of Equipment                              3
FMC 11-05   Untimely Reporting of Leasehold Improvements                                          3




                                              APPENDIX

Appendix    Subject                                                                             Page

    A       Crosswalk – Financial Management Comments to Active Notices of Finding and            4
            Recommendation (NFRs)
    B       Status of Prior Year NFRs                                                             5




                                                     1

                             National Protection and Programs Directorate
                                  Financial Management Comments
                                         September 30, 2011


FMC 11-01 – Inadequate Internal Controls over Reporting of Government Furnished Equipment
Asset Disposals (NFR No. NPPD 11-01)

       During testwork over a sample of five items from the capitalized asset disposal population at June
       30, 2011, we noted that one asset was disposed of in fiscal year (FY) 2010, but was not recorded
       as a disposal in Federal Financial Management System (FFMS) until FY 2011.

       Recommendation:
       We recommend that National Protection and Programs Directorate (NPPD) follow existing
       policies and procedures related to the reporting of fixed assets and fixed asset disposals. We also
       recommend that NPPD continue to increase communications in this regard with its financial
       reporting provider, Immigration and Customs Enforcement.

FMC 11-02 – Subject to Availability of Funding Agreements Not Obligated in Federal Financial
Management System at Outset of Agreement (NFR No. NPPD 11-02)

       We noted that the Federal Protective Services (FPS) did not record a dollar value for obligations
       in FFMS for Subject to Availability Funding (SAF) agreements prior to incurring costs on the
       agreements.

       We also noted that it is FPS’s policy to obligate $0 in FFMS for an agreement while costs are
       incurred. Additional funding is added to the obligation after the receipt of an invoice if the
       funding in FFMS is not sufficient to pay the invoice.

       Recommendations:
       We recommend that NPPD:
           •	 Obtain specific, written representations from internal legal sources and external
              regulatory sources to support the practice if NPPD continues to utilize this practice.
           •	 Consider implementing procedures to record obligations as they occur while minimizing
              the potential impact (e.g., potential Anti-deficiency Act violations) to customer
              organizations.

FMC 11-03 – Inadequate Internal Controls over Reporting of Internal Use Software Projects (NFR
No. NPPD 11-04)

       We noted that NPPD performed a review of internal use software (IUS) and identified two
       programs that create IUS but did not report any costs as capitalized as of September 30, 2011.
       NPPD reviewed expenses on all contracts on the two programs and noted that the capitalized
       costs and non-capitalized costs could not be separated and identified based on the supporting
       documentation available at the time of the review and therefore developed a methodology for
       determining the effect on the balance sheet. We noted that NPPD asset management failed to
       report capitalized costs for IUS projects in a timely manner for inclusion in the general ledger.




                                                    2

                             National Protection and Programs Directorate
                                  Financial Management Comments
                                         September 30, 2011


      Recommendations:
      We recommend that NPPD:
      •	 Work with sub-components and programs to ensure proper tracking and reporting for all IUS.
      •	 Work with the Office of Acquisitions and Office of Procurement Operations to ensure each
          contract includes the proper property reporting clause and to add/modify contract line item
          numbers/appropriate accounting strings specifically for property.

FMC 11-04 – Inadequate Internal Controls over Reporting of Equipment (NFR No. NPPD 11-05)

       When performing testwork over property, plant, and equipment (PP&E) additions for the fourth
       quarter of FY 2011, we noted one instance where NPPD recorded capitalized costs related to
       government furnished equipment (GFE) in an untimely manner and one instance where NPPD
       recorded capitalized costs related to GFE at the incorrect amount.

       Recommendations:
       We recommend that NPPD – US-Visitor and Immigrant Status Indicator Technology’s Asset
       Management Team:
       •	 Review its GFE and personal property to ensure all assets are properly accounted for in the
          asset management system.
       •	 Revise management policies and procedures for both GFE and government held personal
          property to ensure internal controls are established and implemented to properly account for
          property.

FMC 11-05 – Untimely Reporting of Leasehold Improvements (NFR No. NPPD 11-06)

       When performing testwork over PP&E additions for the fourth quarter of FY 2011, we noted that
       two items that were classified as leasehold improvements were not capitalized in a timely manner
       as the invoices included expenses incurred in prior years.

       Recommendation:
       We recommend that NPPD continue to work with ICE Office of Financial Management to
       improve policies and procedures to ensure that capital projects are identified at the time of
       obligation, including leasehold improvements.




                                                    3

                                                                                                                 Appendix A
                                National Protection and Programs Directorate
                         Crosswalk - Financial Management Comments to Active NFRs
                                             September 30, 2011


                                                                                                   Disposition1
                                                                                                  IAR                FMC
    NFR No.                                  Description                               MW         SD        NC        No.
                Inadequate Internal Controls over Reporting of Government
     11-01                                                                                                           11-01
                Furnished Equipment Asset Disposals
                Subject to Availability of Funding Agreements Not Obligated in
     11-02      Federal Financial Management System (FFMS) at Outset of                                              11-02
                Agreement
     11-03      Potential ADA Violation                                                                      N
                Inadequate Internal Controls over Reporting of Internal Use Software
     11-04                                                                                                           11-03
                (IUS) Projects
     11-05      Inadequate Internal Controls over Reporting of Equipment                                             11-04
     11-06      Untimely Reporting of Leasehold Improvements                                                         11-05

1
 Disposition Legend:
IAR	       Independent Auditors’ Report dated November 11, 2011
FMC	       Financial Management Comment
MW	        Contributed to a Material Weakness at the Department level when combined with the results of all other components
SD	        Contributed to a Significant Deficiency at the Department level when combined with the results of all other
          components
NC	        Contributed to Non-Compliance with laws,regulations, contracts, and grant agreements at the Department level when
          combined with the results of all other components
NFR	       Notice of Finding and Recommendation

Cross-reference to the applicable sections of the IAR:
A         Financial Reporting
B         Information Technology Controls and System Functionality
C         Property, Plant, and Equipment
D         Environmental and Other Liabilities
E         Budgetary Accounting
F         Entity-Level Controls
G         Fund Balance with Treasury
H         Grants Management
I         Custodial Revenue and Drawback
J         Federal Managers’ Financial Integrity Act of 1982 (FMFIA)
K         Federal Financial Management Improvement Act of 1996 (FFMIA)
L         Single Audit Act Amendments of 1996
M         Chief Financial Officers Act of 1990 (CFO Act)
N         Antideficiency Act, as amended (ADA)
O         Government Performance and Results Act of 1993 (GPRA)




                                                              4

                                                                                                                   Appendix B
                                     National Protection and Programs Directorate
                                              Status of Prior Year NFRs
                                                 September 30, 2011


                                                                                                         Disposition1
                                                                                                                  Repeat
    NFR No.                                      Description                                      Closed2
                                                                                                             (2011 NFR No.)
     10-01     Inadequate Internal Controls over Reporting of IUS Projects                                     NPPD-11-04
     10-02     Inconsistent Application of Property Capitalization Thresholds at NPPD                X
     10-03     Untimely De-Obligation of Undelivered Orders                                          X
     10-04     Potential ADA Violation                                                                          NPPD-11-03
               Subject to Availability of Funding Agreements Not Obligated in FFMS at
     10-05                                                                                                      NPPD-11-02
               Outset of Agreement
     10-06     Obligations Are Not Recorded in FFMS in a Timely Manner                               X
     10-07     Payment Processed Without Contracting Officer Certification                           X


1
 KPMG was engaged to perform an audit over the DHS balance sheet and statement of custodial activity as of and for the year
ended September 30, 2011, and was not engaged to perform an audit over the statement of net cost, statement of changes in net
position, and statement of budgetary resources for the year ended September 30, 2011. In addition, we were engaged to follow-
up on the status of all active NFRs that supported significant deficiencies reported in our FY 2010 Independent Auditors’ Report.


2
  The scope of our audit was limited to follow-up on NFRs that supported a material weakness or significant deficiency as
reported in our Independent Auditors’ Report. All other NFRs, e.g., that described insignificant findings, and therefore presented
to DHS management as observations for consideration, were considered closed.




                                                                5

Report Distribution

                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretary
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      Chief Financial Officer
                      Chief Information Officer

                      National Protection and Programs Directorate

                      Under Secretary
                      Director of Finance, Budget, and Acquisition
                      Audit Liaison

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, or e-mail your request to
our OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov. For
additional information, visit our OIG website at www.oig.dhs.gov or follow us on Twitter
@dhsoig.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
